No. _ _ __
In The
Supreme Court of the United States
~

BLANCA ARIZ1\1ENJ?I,
Petitioner ,
V.

PATRICK GABBERT SGT., Individually aIJd in
his official capacity as Criminal In vestigator,
Respondent,
On Petition For Writ Of Certioral'i To The United
States Court Of Appeals For The Fifth Circuit
t-.

PROOF OF SERVICE
I declare that: I am a i-esident of Cayucos, California. I am over the age of
18 years and not a party to the v,,ithin entitled cause. My name and address is
Dorothy Kleinhammer 1000 Park Avenue, Cayucos, CA 93430 ..
On August 28, 2019, I ser ved pursuant to Supreme Court Rule 29.5, three
copies on all parties required the following document(s):
1. PETITION FOR WRIT OF CERTIORARI

(x) BY PRIORITY 1\/IAIL: Depositing a true and correct copy thereof enclosed in a
sealed envelope with the United States Postal Service with postage prepaid at
Atascadero, California. The envelope was addressed and mailed as follows:

Charles S. Frigerio
Law Offices of Charles S. Frigerio, PC
111 Soledad Street, Suite 840
San Antonio, Texas 78205
The following Counsel for the Appellant email addresse8 has also been
ELECTRONICALLY served: frigeriolawJ995@sbcglobal.net
csfrigeriolaw@sbcglobal.net
jvasquez56@sbcglobal.net
I declare under the penalty of perjury that the foregoing is true and correct.
Executed on Aug·ust 28, 2019, at Atascadero, Cali
DATED: 08--28-2019
Dorothy Kloinhammer
Name of person completing this form

No. _ _ __
In 'f'he
Supreme Court of the United States
/}.

BLANCA ARIZMENQI,
Petitioner,
V.

PATRICK GABBERT SG'r., Individually and in
bis official capaci~v as C1iminal J11vestigato1;
Respondent,
On Petition For Writ Of Certiorari To The United
States Court Of Appeals For The Fifth Circuit
!\

PROOF OF SERVICE
I declare that: I am a resident of Cayucos, California. J am ove1' the age of
18 year s and not a party to t he within entitled cause. My name and add.Tess is
Dorothy Kleinhammer 1000 Pa rk Avenue, Cayucos, CA 93430..
On Auigust 28, 2019, I sei·ved pursuant to Supreme Com·t Rule 29.5, three
copies on all parties required the follov,•ing document(s):
1. PETITION FOR WRIT OF CERTIORARI

(x) BY PRIORITY MAIL: Depositing a true and correct copy thereof enclosed in a
sealed envelope with the United States Postal Service with postage prepaid at
Atascadero, California. The envelope was addressed and mailed as fol1ows:

Attorney General State of Texas
Ken Paxton
P.O. Box 12548,
Austin, Texas 78711
The following Coun sel for the Appe llant email addresses has also been
ELECTRONICALLY served: NIA
I declare under the penalty of perjury t hat the foregoing is true and conect.

Executed on Au gust 28, 2019, at Atascadero, Califor 1ia.
DATED: 08-28-2019
Dorothy Kleinhanu:p=e=1_· _ _
Name of person completing this form

No. _ _ __
In The
Supreme Court of the United States
t,.

BLANCA ARIZMENJ?l,
Petitioner,
V.

PATRICK GABBERT SGT., lndividualjy and in
his official capaci~y as C1"i.111i11al I11vesti.gato1·,
Respondent,
On Petition For Writ Of Certiorari To The United
States Court Of Appeals For The Fifth Circuit
1\

PROOF OF SERVICE
I declare that: I am a resident of Cayucos, California. I am over the age of
18 years and not a party to the within entitled cau se. My name and address is
Dorothy Klejnhammer 1000 Park Avenue, Cayucos, CA 93430 ..
On Auigust 28, 2019, I served pursuant to Supreme Court Rule 29.5, three
copies on all parties required the following document(s):
1. PE;TJTION FOR WR.IT OF CERTIORARI

(x) BY PRIORITY :MAIL: Depositing a true and correct copy thereof enclosed in a
sealed envelope with the United States Postal Service with postage prepaid at
Atascadero, California. The envelope was addressed and mailed as follows:

Solicitor General of the United States,
Roon1 5616, Deparhnent of Justice,
950 Pennsylvania Ave., N. W. ,
\¥ashington, DC 20530-0001
The following Counsel for the Appellant email addresses has also been
ELECTRONICALLY served: NIA
I declare under the penalty of pel'jury that the foregoing is true and correct.
Executed on August 28, 2019, at Atascadero, California
DATED: 08-28-2019
Dorothy Kleinhammer
Name of person completing this form

